                  CLOSEOUT MEMORANDUM FOR M98050015

        On 11 May 1998, an NSF program officer1 brought an allegation of misconduct in
science he had received from the complainant2to OIG's attention. The complainant alleged that,
while browsing award abstracts on NSF's External Internet Home Page, he found an abstract for
an award3that contained text copied from a proposal abstract he had written and submitted to his
~nstitution.~ The complainant explained that the proposal submission was a requirement at the
Institution for any research work that might have future commercial value. The proposal
requested no funds from the Institution for the work. The complainant said that he had never met
the P1 listed for the NSF award, subject 1; who was employed by the grantee ~ r ~ a n i z a t i o n . ~
OIG identified two additional subjects in this inquiry during its initial review of the NSF award
file. Subject 23 was the original sole PI on the NSF award, whom subject 1, a participant on the
NSF award, officially replaced when subject 2 resigned from the grantee organization.
Consequently, subject 2 was listed as the PI on the NSF Home Page award abstract, which is
what the complainant read. Subject 35 was a participant on the NSF award who worked at the
complainant's Institution.

        The complainant provided OIG with a copy of his proposal.6 OIG noted that subject 3
was a fellow investigator on the proposal. Therefore, subject 3 had been associated with both the
proposal to the Institution and the award at the grantee organization. OIG informed the
complainant that a) subject 2 was the original PI on the NSF award, b) subject 1 was named as
the replacement PI after subject 2 left the grantee organization, and c) subject 3 was a participant
on the NSF award. The complainant said that, because he and subject 3 jointly developed the
proposal, subject 3 could use the text from their joint proposal without permission. OIG
concurred with the complainant and concluded that there was no substance to the allegation of
plagiarism.

        This case is closed and no further action will be taken.

cc: Staff Scientist, Investigations, Attorney, AIG Oversight, IG




                                             Footnotes Redacted




                                            Page 1 of 1
